No.
IN THE SUPREME COURT OF THE UNITED STATES
ALEX M. AZAR II, SECRETARY OF HEALTH AND
HUMAN SERVICES, ET AL., PETITIONERS
v.
MAYOR AND CITY COUNCIL OF BALTIMORE
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 7th day of October 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,707
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct. Executed
on October 7, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 7, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST:

Drew A. Harker
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
Direct: 202-942-5022
Email: drew.harker@arnoldporter.com
Dana Petersen Moore
BALTIMORE CITY LAW DEPARTMENT
Office of Legal Affairs
100 North Holliday Street
Baltimore, MD 21212
Direct: 410-396-3659
Email: law.danapmoore@baltimorecity.gov
Suzanne Sangree
BALTIMORE CITY LAW DEPARTMENT
Office of Legal Affairs
Room 156
100 North Holliday Street
Baltimore, MD 21212
Direct: 443-388-2190
Email: suzanne.sangree2@baltimorecity.gov
Priscilla Joyce Smith
YALE LAW SCHOOL INFORMATION SOCIETY PROJECT
319 Sterling Place
Brooklyn, NY 11238
Direct: 718-399-9241
Email: priscilla.smith@yale.edu
Stephanie Toti
LAWYERING PROJECT
9th Floor
25 Broadway
New York, NY 10004
Direct: 516-967-4110
Email: stoti@lawyeringproject.org
Faren M. Tang
YALE LAW SCHOOL
127 Wall Street
New Haven, CT 06511
Direct: 203-432-1082
Email: faren.tang@ylsclinics.org

Andrew Tutt
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
Direct: 202-942-5242
Email: andrew.tutt@arnoldporter.com

